f.

Case No. 2~0 bOb

IN THE SUPREME COURT
OF THE UNITED STATES OF AMERICA
TATYANA E. DREVALEVA,
Petitioner,

filial!

VS.

DEPARTMENT OF INDUSTRIAL RELATIONS OF THE STATE OF
CALIFORNIA
Respondent

On Petition for Writ of Certiorari to the California Supreme Cc ur.
Alameda County Superior Court, case No. RG17881790

filed
SEP 1 h 2020

OFFICE OF THE CLERK
SUPREME COURT. U.S.

Court of Appeal for the First District, Division Four
Appeal No. A155165, A155187, A155899 (consolidated)
The California Supreme Court, Petition for Review S260407 - denied
The California Supreme Court, Petition for Writ of Mandate S260480 - denied
The California Supreme Court Petition for Writ of Mandate S262066 - denied

PETITION FOR WRIT OF CERTIORARI
Tatyana E. Drevaleva, Petitioner Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121

RECEIVED
SEP 2 3 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

415-806-9864; tdrevaleva@gmail.com
Page 1 of 64

QUESTIONS PRESENTED.
1) Does Governmental Entity the California Department of Industrial Relations
(DIR) have a right to file a Special Motion to Strike my Complaint (an antiSLAPP1 Motion, C.C.P. §425.16) asserting that my Complaint violated the
Entity’s First Amendment right for free speech and petitioning if I filed a
Complaint for Libel committed by the Entity regarding the reasons of the
termination of my employment from Alameda Health System (AHS)?
Specifically, the DIR, the Division of Labor Standards Enforcement (DLSE)
said in its December 29, 2016 Determination Letter that I was properly fired
from my job at Alameda Health System (AHS) for committing medical
negligence towards the patient whereas my former employer AHS never said
that I had committed medical negligence towards the patient?
2) Does Governmental Entity the California Department of Industrial Relations
(DIR) have a right to claim absolute Governmental immunity for discretionary
acts pursuant to pursuant to Gov. Code §§ 815.2(b); 820.2; 821.6; 818.8, and to
assert privilege pursuant to Civil Code §47(b) if my Complaint arose from
breach of the DIR’s mandatory duty (Gov. Code §815.6) to investigate my
both wage claim and my retaliation and unlawful termination claim as outlined
at the California Labor Code §98.7:

SLAPP is an acronym of the “Strategic Lawsuit Against Public Participation.”
Page 2 of 64

(i)

Failure to interview a claimant and a respondent my former
employer Alameda Health System (AHS) who fired me, see Labor
Code §98.7(b)

(ii)

Failure to interview the witnesses whom I listed in my both original
claim and in my June 18, 2014 letter to Deputy of the Labor
Commissioner Ms. Daly, see Labor Code §98.7(b)

(iii)

Failure to review the documents from my former employer AHS
regarding my performance and the reasons of the termination of my
employment, see Labor Code §98.7(b)

(iv)

Failure to issue Determination within 60 days as was outlined at
Labor Code §98.7(e) and processing my retaliation and unlawful
termination claim for an enormous amount of time 3 years and 4
months, see Labor Code §98.7(e)

(v)

Failure to send me a Determination Letter and therefore depriving
me to appeal the Determination with Director of the DIR, see Labor
Code §98.7(e)

(vi)

Failure of the public officers charged with the duty to protect
complainant's property and the officers’ inability or unwillingness to
furnish adequate protection, see labor Code §1138.1(a)(5)?

3) Is Libel regarding the reasons of the termination of my employment from AHS
protected by the First Amendment to the U.S. Constitution and the California
Constitution?
Page 3 of 64

4) Can the Governmental Entity DIR assert that my Complaint arose from DIR’s
First Amendment right for free speech and petitioning if my Complaint arose
from:
a) the consistent DIR’s refusal to give me explanations and evidence
regarding DIR’s allegation that I had been fired from AHS for committing
medical negligence towards the patient,
b) from DIR’s refusal to interview me and to interview Respondent AHS who
never said that I had been fired for medical negligence towards the patient;
c) from DIR’s refusal to interview witnesses whom I listed in my June 18,
2014 letter to Deputy of the Labor Commissioner Ms. Catherine Daly,
d) from DIR’s refusal to conduct an investigative hearing at my request,
e) from DIR’s attempt to coerce me to withdraw my retaliation and unlawful
termination claim “on my own free will”,
f) from DIR’s procrastination for 3 years and 4 months instead of 60 statutory
days imposed by Labor Code §98.7(e) while DIR was investigating my
retaliation and unlawful termination claim, and
g) from DIR’s refusal to send me the Determination Letter, so I could appeal
the Determination with Director of DIR Ms. Christine Baker?
5) Evaluating the Second Prong of the anti-SLAPP statute, is DIR eligible to
assert Governmental immunity pursuant to Gov. Code §§815.2; 820.2; 821.6;
818.6, and to assert privilege pursuant to Civil Code §47 instead of
“considerringl the pleadings, and supporting and opposing affidavits stating the
Page 4 of 64

facts upon which the liability or defense is based” as outlined at C.C.P.
§425.16(b)(2)?
6) Filing a Demurrer to my Complaint for Libel and Professional Negligence, is
DIR eligible to assert Governmental Immunity pursuant to Government Code
Sections 815.2(b); 820.2; 821.6; 818.8, and to assert privilege pursuant to Civil
Code Section 47(b) if my Complaint arose from DIR’s breach of mandatory
duty imposed by Labor Code §98.7(b) and (e)?
7) Can DIR claim Governmental immunity for discretionary acts if DIR’s
December 29, 2016 Determination Letter was based on a fabricated piece of
evidence (the alleged September 04, 2013 email from Nursing Director Ms.
Littlepage that announced about AHS’s intention to release me from my
probationary employment), and DIR failed to question Ms. Littlepage in person
whether she wrote this email?
8) Can DIR claim a Governmental immunity for writing in its Determination
Letter that, because I was a probationary employee, my employer AHS didn’t
need to have any reason to fire me, and AHS was not obligated to follow a Due
Process?
9) Do both a Superior Court and the Court of Appeal have a right to deny my
Motion for Expenses, Sanctions, Costs, and Attorney’s Fees pursuant to both
C.C.P. §425.16(c)(1) and C.C.P. §128.5 for partially winning the anti-SLAPP
Motion?

Page 5 of 64

10)Is a Governmental Attorney who is directly employed by the Public Agency
DIR eligible to demand Attorney’s Fees for partially winning the anti-SLAPP
Motion despite of the absence of the Attorney-Client relationship between the
Entity and the Attorney?
ll)Is the Governmental Attorney who is directly employed by the Public Agency
and whose Governmental salary is approximately $70-80 per hour eligible to
demand Attorney’s Fees for partially winning the anti-SLAPP Motion at the
commercial rate $400 per hour?
12) Can both a Superior Court and the Court of Appeal deny my right to obtain
Attorney’s Fees pursuant to the California Public Records Act or Gov. Code
§6259(d) for prevailing on my Verified Petition for Writ of Mandate to
Compel the Department of Industrial Relations of the State of California to
issue the improperly withheld Public Records?
13)Do both the Superior Court and the Court of Appeal have a right to refuse to
accept into their consideration the material pieces of evidence that clearly
demonstrated that:
a) My former employer Alameda Health System never said that I had
committed medical negligence towards the patient
b) I didn’t commit medical negligence towards the patient,
c) during the previous litigation No. 3:16-cv-07414-LB at the District Court,
both my former employer AHS and DIR didn’t say that I had committed
medical negligence towards the patient, and
Page 6 of 64

d) there was no explanation and evidence in both the Personnel Record from
AHS and in the Complete File of the Public Records from DIR that would
explain and/or confirm DIR’s allegation of the medical negligence towards
the patient?
14)Absent any explanation and any piece of evidence about DIR’s allegation of
the medical negligence, do both the Superior Court and the Court of Appeal
have a right to grant DIR’s anti-SLAPP Motion for the cause of action
“Libel”?

15)Absent any explanation and any piece of evidence about DIR’s allegation of
the medical negligence, do both the Superior Court and the Court of Appeal
have a right to grant DIR with Governmental immunity pursuant to Gov. Code
§§815.2(b); 820.2; 821.6; 818.8, to grant DIR with privilege pursuant to Civil
Code §47(b), and to sustain DIR’s Demurrer without leave to amend?
16)If I partially won the anti-SLAPP Motion, can the Superior Court and the Court
of Appeal deny my motion for Costs and Attorney’s Fees pursuant to C.C.P.
§128.5 on the ground that DIR prevailed on a large part of the anti-SLAPP
Motion, and therefore DIR’s victory on that part of the anti-SLAPP Motion
overlapped my victory on a smaller part of the anti-SLAPP Motion?
17)Does a Superior Court have a right to deny my Motion for Specified Discovery
Despite the Pending anti-SLAPP Motion if in my Discovery Request I
requested the Public Records that were related to DIR’s processes of

Page 7 of 64

investigation of my both retaliation and unlawful termination claim and my
wage claim and that were not exempt from the disclosure?
18)Does a Superior Court have a right to deny my Motion for Reconsideration of
the Court’s Order that denied my Motion for Specified Discovery Despite the
Pending anti-SLAPP Motion if I was seeking to obtain the Public Records that
were not exempt from the disclosure?
19)Does the Superior Court have a right to initially allow me to file a Verified
Petition for Writ of Mandate to Compel DIR to Issue the Improperly Withheld
Public Records in a form of a Noticed Motion and later to deny my Petition
because I filed it as a Noticed Motion?
20)Does a Superior Court have a right to deny my Verified Petition for Writ of
Mandate to Compel DIR to Issue the Improperly Withheld Public Records on
the basis that I didn’t write the words “PRA” (the Public Records Act) in a
Declaration?
21)Does a Superior Court have a right to refuse to find me a Prevailing Party in
the CPRA (the California Public Recor6ds Act) litigation of my Verified
Petition for Writ of Mandate was a catalyst that compelled DIR to issue the
improperly withheld Public Records?

Page 8 of 64

A LIST OF ALL PARTIES TO THE PROCEEDING IN THE COURT WHOSE
JUDGMENT IS SOUGHT TO BE REVIEWED
All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is as
follows:
a) Petitioner Tatyana Evgenievna Drevaleva - Plaintiff, Appellant Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@gmail.com
b) Ms. Janill L. Richards
California Department of Justice, Office of the Solicitor General
1515 Clay Street, 20th Floor
Oakland, CA, 94612
(510) 897-1300: ianill.richards@doi.ca.gov
c) Attorney General of the State of California Mr. Xavier Becerra will be served.
13001 Street, Suite 1740
Sacramento, California 95814-2954
Alternate address: PO Box 944255,
Sacramento, CA 94244-2550
Phone: 916-445-9555 Fax: 916-323-5341
sfagdocketing@doi.ca.gov
Page 9 of 64

A CORPORATE DISCLOSURE STATEMENT AS REQUIRED BY RULE 29.6.
Not Applicable.

Page 10 of 64

A LIST OF ALL PROCEEDINGS IN STATE AND FEDERAL TRIAL AND
APPELLATE COURTS, INCLUDING PROCEEDINGS IN THIS COURT, THAT
ARE DIRECTLY RELATED TO THE CASE IN THIS COURT.
1) 3:16-cv-07414-LB at the District Court for Northern California, Drevaleva v. 1)
Alameda Health System, 2) Officers of the California Department of Industrial
Relations Ms. Catherine Daly, Ms. Joan Healy, Mr. Bob it Santos, and Mr. Eric
Rood whom I am suing in their personal capacities — dismissed with prejudice on
July 07, 2017
a) Appeal No. 17-16382 at the U.S. Court of Appeals for the 9th Circuit - the
Judgment of the District Court is affirmed on December 24, 2019, a Petition
for Panel Rehearing is denied, a Petition for Rehearing En Banc is denied as
untimely, my Petition to the En Banc Coordinator Chief Justice Hon. Sidney
Thomas to extend the time to file a Petition for Rehearing En banc is denied, a
Mandate is issued on June 08, 2020, a No File Order is in place
b) Petition for Writ of Certiorari at the U.S. Supreme Court No. 19-8012 - denied
on May 18, 2020, Petition for Rehearing denied on August 03, 2020
2) 3:20-cv-00642JD - Drevaleva v. 1) Ms. Laurel Beeler in her personal capacity as
a Magistrate Judge of the U.S. District Court for Northern California, 2) The
U.S.A., the District Court for the Northern District of California, an FTCA claim
for Harassment and Outrage, the lawsuit was dismissed on April 27, 2020 for
judicial immunity. A Motion to Vacate the Judgment is pending.

Page 11 of 64

a) 20-149-JL - Drevaleva v. The District Court for the Northern District of
California, the U.S. Court of Appeals for the Federal Circuit, Verified Petition
for Writ of Mandate to Compel the District Court for the Northern District of
California to Rule on my Motion to Vacate the Judgment in case No. 3:20-cv00642-JD
3) RG17881790 Drevaleva v. Department ofIndustrial Relations, the Superior Court
of Alameda County (current case) - an anti-SLAPP Motion was partially granted,
a Demurrer was sustained without leave to amend, the Complaint was dismissed
on August 18, 2018
a) Appeal No. A155165, A155187, A155899 (consolidated) (current Appeal), the
Court of Appeal for the First District, Division Four - the Orders of the
Superior Court of Alameda County were affirmed on December 20, 2019, a
Petition for Rehearing is denied on January 16, 2020
Petition for Review No. S260407, the California Supreme Court -

(i)

denied on April 15, 2020
(ii)

Petition for Writ of Mandate No. S260480, the California Supreme
Court - denied on April 15, 2020

(iii)

Petition for Writ of Mandate No. S262066, the California Supreme
Court - denied on July 08, 2020

b) Appeal No. A156248, the Court of Appeal for the First District, Division Four
the Orders of the Superior Court of Alameda County were affirmed on

Page 12 of 64

December 20, 2019, my Petition for Rehearing was denied on January 16,
2020
(i)

Petition for Review No. S260355, the California Supreme Court denied on April 15, 2020

(ii)

Petition for Writ of Mandate No. S260491, the California Supreme
Court - denied on April 15,2020

4) RG19002853 - Drevaleva v. Alameda Health System, the Superior Court of
Alameda County, First Verified Petition for Writ of Mandate to Compel AHS to
Issue the Improperly Withheld Public Records - dismissed with prejudice on July
08,2019
a) Appeal No. A157784, the Court of Appeal for the First District, Division Four
Defendants’ Motion to Dismiss Appeal was granted on November 04, 2019
(i)

Petition for Review No. S259444, the California Supreme Court denied on January 15, 2020

(ii)

Petition for Writ of Mandate No. S260513, the California Supreme
Court - denied on April 15,2020

b) Appeal No. A158299, the Court of Appeal for the First District, Division Four
- Defendants’ Motion to Dismiss Appeal was granted on November 04, 2019
(i)

Petition for Review No. S259440, the California Supreme Court denied on January 15, 2020

(ii)

Petition for Writ of Mandate No. S260498, the California Supreme
Court - denied on April 15, 2020
Page 13 of 64

c) Appeal No. A158282, he Court of Appeal for the First District, Division Four the Orders of the Superior Court that denied my Motion for Costs and
Attorney’s Fees pursuant to Government Code §6259(d) and that denied my
Motion for Costs and Attorney’s Fees pursuant to the California Code of Civil
Procedure §128.5 were affirmed on May 29, 2020; Petition for Rehearing was
denied on June 17, 2020
(i) Petition for Review No. S263089, the California Supreme Court is pending
5) RG19002840 - Drevaleva v. Alameda Health System, the Superior Court of
Alameda County, Verified Petition for an Order Relieving from Government Code
Section 945.4 - dismissed with prejudice on May 23, 2019
a) Appeal No. A157851, the Court of Appeal for the First District, Division Four
the Order of the Superior Court was affirmed on March 20, 2020; Petition for
Rehearing is denied on April 16, 2020; Petition for Mandatory Rehearing was
denied on April 16, 2020
b) Petition for Review No. S261831, the California Supreme Court - denied on
July 08, 2020
6) RG19010635 - Drevaleva v/ 1) Alameda Health System, 2) The Narayan
Travelstead Professional Law Corporation, Complaint for Libel. Abuse of
Process, and the Intentional Infliction of Emotional Distress for saying that I was
fired from Alameda Health System for poor professional performance, the
Superior Court of Alameda County, the anti-SLAPP Motion was granted on July
23,2019, a Notice of Appeal was filed, a case is on an automatic stay
Page 14 of 64

a) Appeal No. A158862 - on August 31, 2020, the Court of Appeal for the First
District, Division Four affirmed the July 23, 2019 Order of the Superior Court
that granted the anti-SLAPP Motion, and on August 31, 2020 the Court of
Appeal for the First District, Division Four declared me a vexatious litigant
pursuant to C.C.P. §391(b)(1) - (3)

(0

Petition for Writ of Mandate No S260437, the California Supreme
Court - withdrawn on Match 05, 2020

(ii)

Petition for Review No. S263359, the California Supreme Court pending

(iii)

Petition for Writ of Mandate No. S263545, the California Supreme
Court - denied on August 19, 2020

(iv)

Petition for Writ of Mandate No. S264253, the California Supreme
Court — Vexatious litigant application denied on September 09, 2020

(v)

Petition for Writ of Mandate No. S264348, the California Supreme
Court - Vexatious litigant application denied on September 11, 2020

7) RG19039413 - Drevaleva v. Alameda Health System, the Superior Court of
Alameda County, Second Verified Petition for Writ of Mandate to Compel AHS
to Issue the Improperly Withheld Public Records - dismissed with prejudice on
June 11, 2020
a) Appeal No. A160688, the Court of Appeal for the First District, Division Four
- pending

Page 15 of 64

8) RG20061108 - Drevaleva v. Gilbert Harding, Jr., Complaint for Libel, the
Superior Court of Alameda County -pending.
9) RG20066898 - Drevaleva v. Alameda Health System, Complaint for Unpaid
Wages and Wrongful Termination, the Superior Court of Alameda County pending.

Page 16 of 64

TABLE OF CONTENTS.
Opinions below

18

Jurisdiction

,23

Constitutional and statutory provisions involved

,24

Statement of the case

,25

Reasons for granting the Writ

60

Conclusion

62

Page 17 of 64

INDEX TO APPENDICES
Appendix A - Opinion of the Court of Appeal for the First District, Division
Four, December 20, 2010 (unpublished) in Appeal No. A155165, A155187, A155899.
Appendix B - Order of the Superior Court of Alameda County that partially
granted DIR’s anti-SLAPP Motion in case No. RG17881790, August 17,2018.
Appendix C - Order of the Superior Court of Alameda County that sustained
DIR’s Demurrer without leave to amend to the remaining allegations within the Second
Cause of Action ‘Professional Negligence” and that dismissed the action in case No.
RG17881790, August 17, 2018.
Appendix D - Order of the Superior Court of Alameda County that denied my
Motion for Specified Discovery Despite the Pending anti-SLAPP Motion, No.

RG 17881790, May 18, 2018.
Appendix E - Order of the Superior Court of Alameda County that denied my
Motion for Reconsideration of the Court’s Order that denied my Motion for Specified
Discovery Despite the Pending anti-SLAPP Motion, No. RG17881790, July 27, 2018.
Appendix F - Order of the Superior Court of Alameda County that directed the
Parties to complete additional briefing regarding DIR’s anti-SLAPP Motion, No.
RG17881790, May 18, 2018.

Page 18 of 64

Appendix G - Order of the Superior Court of Alameda County that denied my
Verified Petition for Writ of Mandate to Compel DIR to Issue the Improperly Withheld
Public Records, No. RG17881790, August 17, 2018.
Appendix H - Order of the Superior Court of Alameda County that denied my
Motion for Costs and Attorney’s Fees pursuant to Government Code, Section 6259(d),
No. RG17881790, October 04, 2018.
Appendix I - Order of the Superior Court of Alameda County that denied my
Motion for Costs and Attorney’s Fees pursuant to C.C.P. §128.5, No. RG17881790,
October 04, 2018.
Appendix J - Order of the Court of Appeal for the First District, Division Four
that denied my Petition for Rehearing in Appeal No. A155165, A155187, A155899,
January 16, 2020.
Appendix K - Order of the California Supreme Court that denied my Petition for
Review No. S260407, April 15, 2020.
Appendix L - Order of the California Supreme Court that denied my Petition for
Writ of Mandate No. S260480, April 15, 2020.
Appendix M - Order of the California Supreme Court that denied my Petition for
Writ of Mandate No. S262066, July 08, 2020.

Page 19 of 64

Appendix N - Order of the Court of Appeal for the First District, Division four
that declared me a vexatious litigant, August 31,2020.
Appendix O - Order of the Court of Appeal for the First District, Division Four
clarified the August 31, 2020 Order that declared me a vexatious litigant, September 04,
2020.

Appendix P - a former version of the California Labor Code Section 98.7.
Appendix R - the California anti-SLAPP statute of the California Code of Civil
Procedure, Section 425.16.

Page 20 of 64

TABLE OF AUTHORITIES
The California Public Records Act (the CPRA)

5, 8, 54
.4, 47, 48, 52

Civil Code §47

.2,5,7, 50,51,57

Civil Code §47(b)

5,7, 14, 19,58

C.C.P. §128.5

.2, 20, 50

C.C.P. §425.16
C.C.P. §425.16(b)(2)

5

C.C.P. §425.16(c)(1)

5,58
51

C.C.P. §425.16(g)

.2, 4,5,7, 50,51,57

Government Code §815.2(b)
Government Code §815.6

60

Government Code §818.8

.2, 5, 7, 50,51,57

Government Code §820.2

2, 4, 5, 7, 47,48, 50,51,52, 57

Government Code §821.6

.2,4, 5, 7, 50,51,57
6, 14, 19, 58, 59

Government Code §6259(d)
California Labor Code

35, 36

Labor Code §98.6

36, 38

Labor Code §98.7

.2,20,41,42, 60

Labor Code §98.7(b)

3,5

Labor Code §98.7(e)

3, 4, 5, 36, 37

Labor Code §510(a)

26

Labor Code §1138.1(a)(5)

60
36,38

Labor Code §6310
Page 21 of 64

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix K,
L, and M to the petition and is
[ ] reported at; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the court appears at Appendix A to the petition and is
[ ] reported at; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
I am respectfully asking the U.S. Supreme Court to review multiple Judgments
that were entered in one Court, see Rule 12.4 of the Rules of the U.S. Supreme Court.

Page 22 of 64

JURISDICTION
[x] For cases from state courts:
The date on which the highest state court decided my case was April 15, 2020 and
July 08, 2020.
A copy of that decision appears at Appendix K, L, and M.
[ ] A timely petition for rehearing was thereafter denied on the following
date:

, and a copy of the order denying rehearing appears at Appendix .

[ ] An extension of time to file the petition for a writ of certiorari was
granted to and including (date) on (date) in Application No.

A.

I am respectfully asking the U.S. Supreme Court to review multiple Judgments
that were entered in one Court, see Rule 12.4 of the Rules of the U.S. Supreme Court.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

Page 23 of 64

f.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
First Amendment to the U.S. Constitution
The Eleventh Amendment to the U.S. Constitution
The California Constitution, Article 1, Sections 3(b)(1) and (b)(2)
The California anti-SLAPP statute, C.C.P. §425.16

Page 24 of 64

2, 3, 4, 50, 52, 55, 57
.47,51
54
2, 20, 50

STATEMENT OF THE CASE
On March 11, 2013, I received an Offer Letter from Alameda Health System
(A155165, Vol. 1; 27) that offered me a 0.8 FTE (part-time and benefit-eligible) job as a
Telemetry Monitor Technician for the 8 hour shifts with the rate of pay $21.48/hour, with
the applicable shift differentials 11% for evenings, 15.5% for nights & 5% for weekends.
I accepted the job offer. Also, I signed a document that I agreed to be represented by the
Union. However, I didn’t make a copy of that document, therefore, there is no any copy
of this document on the file. On April 01,2013,1 started my probationary period. In April
and a half of May 2013,1 worked for four 8 hour periods (32 hours per week) as I had
been promised by the March 11, 2013 letter.
Starting the middle of May 2013, Manager Mr. Clerve informed me that 8 hour
evening shifts were no longer available, and he offered me the only option to work for
three 12 hour night shifts per week which was 36 hours per week. I accepted this offer
because I needed a job.
In 2013, my former employer informally changed its name from the Alameda
County Medical Center (ACMC) to Alameda Health System (AHS.) However, the
employer used the previous policies that were written for the ACMC. Pursuant to this
policy, working for three 12 hour shifts per week constituted a full time employment, see
(A155165, Vol. 1; 31), “Full-time participating staff will work three (3) twelve (12) hour
shifts (36 hours) in a work week and be compensated for 36 hours per week and be
granted benefits equivalent to that of an employee working full time (40 hours) in a work
Page 25 of 64

week. Vacation, educational leave, holiday, and sick leave accruals will be equivalent for
those for full time employee.”
Also, pursuant to ACMC’s policy, I was entitled to rest periods, see (A155165,
Vol. 1; 30), “During each work period of eight working hours, full time non-exempt
employees are provided with two 15-minute paid rest periods and either one 30-minute or
one hour unpaid meal period.” It means that I was entitled to one unpaid 30 minute meal
period and three paid 15 minute rest periods for a 12 hour shift.
Also, the ACMC’s policy provided 10 minute breaks every hour to the employees
who were constantly observing video display screens (A155165, Vol. 1; 30), “Employees
using video display screens 2 consecutive hours or more are entitled to a 10 minute break
every hour.”
Also, see the SEIU Local 1021 information about the ACMC’s shift differentials
(A155165, Vol. 1; 32): 11% for the evening shifts, 15.5% for the night shifts, and
additional shift differentials for working in excess of 8 hours.
After I started to work for three 12 hour shifts per week which was 36 hours a
week, I discovered that AHS:
1) didn’t pay me overtime at the rate xl.5 to my base pay rate $21.48/hour for
four hours that exceeded an 8 hour shift, see Labor Code §510(a)
2) didn’t pay me the shift differentials as follows: 11% for evenings, 15.5% for
nights & 5% for weekends
Page 26 of 64

3) claimed that I was not affiliated to the Union
4) kept me as a Part Time employee despite working for 36 hours a week
5) gave me two 15 minute paid rest periods per a 12 hour shift instead of three 15
minute paid rest periods (A155165, Vol. 1; 30)
6) didn’t give me 10 minute breaks every hour because I was constantly
observing video display screens (A155165, Vol. 1; 30)
In June and July 2013,1 approached Manager Clerve multiple times, and I asked
about unpaid both shift differentials and overtime, about not received 15 minute breaks,
about the denial of my affiliation to the Union, and I asked to transfer me to a full time
job because I was actually working full time. Clerve promised to think about it but
nothing changed.
In July 2013, I was working a night shift, and I was observing a cardiac monitor
and the EKG of Patient Mr. X. Initially, I observed a Normal Sinus Rhythm (NSR.) At
approximately 5 AM, I witnessed how Nurse Kim showed up in a hallway next to the
cardiac monitoring station, and I heard how she reported to Charge Nurse Beverly that
Patient Mr. X. was unconscious in his room, and he didn’t respond to touch and
conversation. In my opinion, Nurse Kim was moving too slowly. I didn’t understand how
could she leave an unconscious patient alone in his room and not to perform a
Cardiopulmonary Resuscitation (CPR.) However, I witnessed how Nurse Kim was
standing in a hallway speaking to Charge Nurse Beverly while Patent Mr. X. was left
unconscious in his room. At the time when Nurse Kim was speaking to Charge Nurse
Page 27 of 64

Beverly, I was observing the Normal Sinus Rhythm (NSR) on Mr. X’s EKG. A few
minutes later, I saw some changes on Mr. X’s EKG. I documented these changes as
artifacts and reported them to both Kim and Beverly and to Doctor Mr. Sina Rachmani
who agreed with my EKG interpretation that these changes were artifacts and not
Ventricular Tachycardia (a lethal cardiac rhythm.)
Charge Nurse called the Code Blue Team that came and started a CPR. When the
Code Blue Team arrived to the patient’s room, they disconnected the patient from my
cardiac monitor and connected their own cardiac monitor to the patient. Therefore, I was
no longer able to continue observing Mr. X’s EKG.
Unfortunately, Mr. X. passed away. In the morning after my night shift, I reported
the incident with Mr. X to my co-worker Ms. Lawson and to Director of Step Down Unit
Mr. Harding. Subsequently, I reported the incident to the AHS’s Committee three times
at three Root Cause Analysis (RCA) meetings to many Doctors and Nurses. I
demonstrated Mr. X’s NSR and the changes that I had documented, and I explained why
I interpreted these changes as Artifacts and not as Ventricular Tachycardia. The
Committee agreed with me. After the incident with the patient, I was allowed to continue
performing my duties as a Monitor Technician, my professional certificates were not
revoked, and I received a good Letter of Reference from Assistant Manager Mr.
Masangkay, see (A155165, Vol. 1; 42), “Ms. Tatyana Drevaleva ... is a very hard
working and dedicated staff and an important part of our team. She pays attention to great
detail and always makes certain that all our telemetry monitored patients are doing okay.
Page 28 of 64

She immediately notifies the appropriate channels as situations arise. All I can say is that
she will be an asset wherever she may go..”
On August 25, 2013,1 approached a newly appointed Director of Step Down Unit
Mr. Harding, and I asked him the questions about unpaid both overtime and shift
differentials, the denial of my affiliation to the Union, missed breaks, and I asked to
transfer me to a full time job because I was actually working full time.. Harding promised
to think but nothing changed. See my pay stub dated August 30, 2013 at (A155165, Vol.
1; 73-74.)
On September 05, 2013, I emailed a letter to Harding with these questions
(A155165, Vol. 1; 33-36.) I asked Harding to compensate me for unpaid overtime shift
differentials, missed 15 minute breaks, to transfer me to a full time job, and to assist me
to pay for college. On September 07, 2013, in twenty minutes after the beginning of my
shift, Harding gave me a Termination Letter (A155165, Vol. 1; 37) that said, “This letter
constitutes notice that you are being released from your employment as a Monitor
Technician effective September 7, 2013. This action is being taken due to the
discrepancies between acceptable employment standards and those you exhibited during
your employment with us. Should you have questions or concerns, please contact Labor
Analyst Adam Cole at 510-535-7604. Sincerely, Gilbert Harding.”
On September 07, 2013,1 asked both Harding and Cole to give me the examples
of these alleged discrepancies between acceptable employment standards and those I

Page 29 of 64

allegedly exhibited during my employment with AHS. Harding’s exact answer was, “We
are not talking about it right now.”
On September 16, 2013, I submitted both a retaliation and unlawful termination
claim and a wage claim to the Department of Industrial Relations ((DIR), the Division of
Labor Standards Enforcement (DLSE), see (A155165, Vol. 1; 237-238.) Deputy of the
Labor Commissioner Mr. Bobit Santos was assigned to investigate my wage claim.
Deputy of the Labor Commissioner Ms. Catherine Daly was assigned to investigate my
retaliation and unlawful termination claim.
After being fired from AHS, I obtained a copy of my Personnel File, and I learned
that the reason of the termination of my employment was ‘Probationary Release”
(A155I65, Vol. 1; 187.) In the Personnel File, AHS checked the box that I was ineligible
for rehire but didn’t explain why.
After being fired from AHS, I was receiving the Unemployment Insurance
Compensation (A155165, Vol. 1; 43.) AHS listed a reason of the termination of my
employment to the Employment Development Department (EDD) as “Probationary
Release.”
On September 23, 2013, AHS issued answers on my September 05, 2013 letter to
Harding (A155165, Vol. 1; 67-72.) AHS denied its obligation to pay me both overtime
and shift differentials, denied my affiliation to the Union, claimed that I was eligible for

Page 30 of 64

two 15 minute breaks for working for 12 hour shifts, claimed that I was not eligible for
being transferred to a full time job, and denied my request to assist to pay for college.
On October 17, 2013, Senior Deputy Labor Commissioner Ms. Ratekin mailed a
letter to AHS (A155165, Vol. 6; 1564) with a Summary of Procedures (A155165, Vol. 6;
1560-1563) that explained the process of investigation of the retaliation and unlawful
termination claim by the Labor Commissioner including interviews a claimant and a
respondent, will interview witnesses, review of the documents from my former employer,
conducting an investigative hearing as necessary, issuing all subpoenas as necessary.
On November 25, 2013, Daly mailed a Letter to Respondent AHS (A155165, Vol.
6; 1556-1559) with a Questionnaire (A155165, Vol. 6; 1558-1559) that required AHS to
provide the explanation within 10 days why AHS fired me and to provide a list of
witnesses. AHS never responded to that questionnaire.
On December 02, 2013, Daly allegedly spoke over the phone with both Harding
and Cole. She never met with both Harding and Cole in person. Daly claims that both
Harding and Cole said to her during the December 02, 2013 phone conversation that I
had been fired for medical negligence towards the patient (A155165, Vol. 1; 232-235.)
However, during the litigation of the subsequent lawsuits No. RG19002840,
RG19002853, RG19010635, and RG19039413 at the Superior Court of Alameda County,
AHS didn’t confirm that both Harding and Cole said to Daly that I had been fired for
medical negligence towards the patient. Daly claimed that on December 06, 2013 Cole
sent her a September 04, 2013 email that was allegedly written by AHS’s Nursing
Page 31 of 64

Director Ms. Dana Littlepage, and that email proposed to release me from my
probationary employment. However, during the subsequent lawsuits at the Superior Court
of Alameda County, AHS didn’t confirm that on December 06, 2013 Cole sent a
September 04, 2013 email of Littlepage to Daly. However, Daly relied on the September
04, 2013 email of Littlepage as a justification to deny my retaliation and unlawful
termination claim. Daly claimed that the September 04, 2013 email of Littlepage predated
my September 05, 2013 letter to Harding. Also, despite Daly didn’t have both
explanations and evidence regarding the allegation of the medical negligence, she kept
claiming that I had been properly fired for committing medical negligence towards the
patient, and she claimed that she had evidence that established that I had been fired for
medical negligence towards the patient/ In fact, neither AHS nor DIR had any piece of
evidence that would explain or confirm the allegation of the medical negligence towards
the patient.
The alleged September 4, 2013 email from Littlepage that said, “We would like to
go ahead and release DREYALEVA, TATYANA from probation on September 13,
2013. Please advise on next steps.” (A155165, Vol. 1; 240.) Therefore, the plain
language of the letter said “release from probation” and didn’t say that AHS was going to
terminate my employment for committing medical negligence towards the patient or for
poor professional performance. Moreover, the alleged September 4, 2013 email was from
Littlepage to Dodson (a Director of Labor Relations of AHS), to Scafaro (an employee of
the Labor Relations of AHS), and to Harding (a Director of Step Down Unit.)

Page 32 of 64

On August 25, 2020, I went to Kaiser Permanente in San Leandro where
Littlepage is currently working as a Nursing Director. I spoke over the phone with
Littlepage’s secretary, and I asked to schedule an appointment to see Littlepage in person.
The secretary refused to schedule an appointment. I gave a printed version of the
September 04, 2013 email of Littlepage to Manager of Volunteer Services Ms. Rena
Cota, her phone number is 510-454-3580, and I asked her to give Littlepage this letter
with my note. In my note, I asked Littlepage to admit or to deny that she wrote this email,
and I provided her with my cell phone number and my email address. Up to today, I
haven’t heard from Littlepage.
Also, see Daly’s notes about the process of investigation of my retaliation and
unlawful termination claim at (A155165, Vol. 5; 1468), “12-02-2013 - Cole will mail
response & supporting documentation prior to '12/11/13 conference. This includes
written explanation Resp. gave CPL. I promised to talk to her [meaning to me - T.D.]
after evidence/response arrives. I will see if I can get her to withdraw the retaliation
claim.” Please, notice that Daly made a decision to convince me to withdraw my
retaliation claim even before she first spoke to me on the merits of my retaliation and
unlawful termination claim on June 16, 2014.
Next, see Daly’s email to Cole dated December 02, 2013 (A155165, Vol. 5;
1376), “Dear Mr. Cole: Thanks again for returning my call.

Page 33 of 64

As I promised, you will find the questionnaire in Microsoft Word format attached
to this email. Below you will also find my additional requests for information and
documents.
By the way, Deputy Santos’s email about the December 11, 2013 wage conference
arrived right after we spoke. The main purpose will be to determine whether the DLSE
has jurisdiction given the public employment issues.
Here are the things I would find most helpful prior to my conversation with the
Complainant:
• The written statement you gave her regarding the questions she raised after
her termination
• Proof the 10 minute extra great policy ended 2 years ago
• The emails between the supervisor and the administrative director regarding
the patient issue
• What efforts you took to document any missing pay (the RCA meeting)
• Anything else you think I would find helpful
Please, notice that Alameda Health System:
1) Possibly provided Daly with a written statement that AHS gave me about the
questions I raised (the September 23, 2013 Letter)
2) Never provided Daly with the proof that the 10 minute break policy ended 2
years ago
Page 34 of 64

3) Never provided Daly with the emails between the supervisor and the
administrative director regarding the patient issue
4) Never provided Daly with the information about what efforts AHS took to
document any missing pay (the RCA meeting)
5) Never provided Daly with the information about “Anything else you think I
would find helpful.”
Regardless, Daly kept claiming that AHS terminated my employment for a
legitimate, non-retaliatory reason. Also, see Daly’s email to Cole dated December 02,
2013 (A155165, Vol. 6; 1550), “Dear Mr. Cole: I write to follow up on my voice mail.
As I indicated, I work with the retaliation unit in the Labor Commissioner’s office. You
can find out more about our work at How to file a retaliation/discrimination complaint.
Last week our Sacramento office sent you a questionnaire about this matter.
Essentially we sought Alameda County Medical Systems (“Alameda Health”) answer to
Tatyana Dreveleva’s (“Dreveleva”) wrongful termination claim.
As you likely know by now, she claims Alameda Health terminated her because
she engaged in a Labor Code protected activities. One, she demanded Alameda Health to
pay for overtime and provide the full complement of breaks. She also asserted the denial
of breaks interfered with her right to an ergonomic workplace. This involves Cal OSHA,
which is why I have the case.

Page 35 of 64

If Dreveleva’s allegations were true then Alameda Health with it violated Labor
Code sections 98.6 and 6310. You can find out more about the labor codes at
CALIFORNIA LABOR CODE.
Please feel free to email your response to me. If you don’t wish to use
questionnaire we sent you, you may put it in a letter or any other format.....”
Please, pay attention to (A155165, Vol. 6; 1660) which was my September 16,
2013 claim to DIR and where I specifically wrote that my Supervisor was Harding, and
where I provided DIR with the phone number of Harding. However, for whatever reason,
Daly communicated with Labor Analyst Cole even though he was never my Supervisor,
and despite the fact that I didn’t list him in my September 16, 2013 retaliation and
unlawful termination claim to DIR.
However, there is no indication that Cole ever filled out the Questionnaire
(A155165, Vol. 6; 1551-1554) and mailed it to Daly within 10 days. However, Daly
didn’t issue a Determination within 60 days as the former version of Labor Code §98.7(e)
directed.
Also, please, notice that this Questionnaire was the second one that was sent to
AHS. The first Questionnaire (with the same questions but in a different format) was
mailed to AHS on November 25, 2013 (A155165, Vol. 6; 1558-1559.) Therefore, AHS
failed to respond to the same Questionnaire twice. AHS didn’t provide the Labor
Commissioner with the answers about my specific behavior that led to the termination of

Page 36 of 64

my employment, didn’t provide the Labor Commissioner with a list and the contact
information of all people who were responsible for making a decision to terminate my
employment, and AHS didn’t provide the Labor Commissioner with the reasons of the
termination of my employment, and AHS didn’t provide the Labor Commissioner with
the contact information of all people who knew about the reasons of the termination of
my employment. Regardless, DIR took AHS’s side and accused me in committing
medical negligence towards the patient.
Because I lost my health insurance as a result of being unlawfully terminated from
AHS in 2013, and because I needed a surgery, I relocated to Russia in January 2014 and
later again in April 2014 and stayed there until 2016. I informed Deputy Daly that I
would stay in Russia, and I asked to forward me all correspondence.
On January 07, 2014, Santos dismissed my wage claim asserting lack of
jurisdiction over County employers even though AHS was not a County employer at that
time.
On June 16, 2014 which was outside of a 60 day statutory period that was
established for issuing a Determination about my retaliation and unlawful termination
claim (see former version of Labor Code §98.7(e)), I received a letter from Daly via the
email (A155165, Vol. 6; 1588-1589), “AHS admitted firing you but blamed its decision
on your failure to meet “acceptable employment standards.” Specifically, your negligence
allegedly seriously harmed a patient. Moreover, it asserted you already knew you faced
termination when you emailed your September 5, 2013 complaints. Therefore your
Page 37 of 64

emailed communication could not have triggered the termination. Finally, it explained
why all your complaints lacked merit.
AHS provided the Division of Labor Standards Enforcement (”DLSE”) with a
legitimate, non-retaliatory reason for firing you. Therefore you must prove AHS’s
response “more likely than not” covers up retaliation or discrimination. This means
showing AHS fired you because you complained about illegal or unsafe working
conditions. If you fail to show this pretext (making) you cannot establish AHS violated
Labor Code §98.6 and 6310.
If you feel you have sufficient evidence to show AHS’s reasons are pretextual,
please reply by July 18, 2014. In your response include supporting documents and a
witness list. Your witness list needs to provide names, addresses, and telephone numbers
or emails. Please, add a shirt statement about what the witness will say. Finally prepare a
separate document listing the adverse actions taken against you and place the events in
date order. Ifyou do not respond by July 18, 2014,1 will assume you no longer wish to go
forward with your case.
Please, include all disputed issues and supporting evidence you want us to
consider. The DLSE normally does not provide hearings in RCI matters.”
On June 18, 2014,1 emailed my response to Daly (A155165, Vol. 1; 46-56) where
I described an incident with patient Mr. X. and provided Daly with a list of witnesses. I
explained that when I saw the changes on Mr. X’s EKG, I immediately reported these

Page 38 of 64

changes to the patient’s Nurse Kim, to the Charge Burse Beverly, and to Doctor
Rachmani who agreed with my interpretation of the EKG. In the morning, I reported
these changes to Supervisor Harding and to my co-worker Ms. Lawson. After the
patient’s death, I reported these changes three times to the Committee of AHS at three
Root Cause Analysis meetings. After the patient’s death, my professional certificates
were not suspended and not revoked, I was allowed to perform my duties as a Monitor
Technician, I received a good Letter of Reference from AHS (A155165, Vol. 1; 42.)
AHS wrote in the Personnel Record that the reason of the termination of my employment
was “Probationary Release” (A155165, Vol. 1; 187.)
After being fired from AHS, I was receiving the Unemployment Insurance
Compensation, see (A155165, Vol. 1; 43.) Reading this document, I learned that AHS
listed a reason of the termination of my employment to the Employment Development
Department (EDD) as “Probationary Release.” Therefore, AHS didn’t say to the EDD
that I had been fired for cause.
After I emailed my June 18, 2014 letter to Daly with my explanation of the facts
and with a list of witnesses, I didn’t hear from Daly at all. In July 2016,1 returned to the
United States from Russia, and I contacted with Daly.
On August 25, 2016, Daly emailed me (A155165, Vol. 6; 1503) and claimed that
the evidence showed that AHS had terminated my employment for a legitimate, nonretaliatory reason. Daly requested my home postal address and promised to send me a
Determination Letter. Daly also attempted to coerce me to withdraw my retaliation and
Page 39 of 64

unlawful termination claim (A155165, Vol. 1; 57), “Withdrawal of DLSE retaliation
claim. I withdraw my Labor Commissioner’s Office Retaliation Complaint.lt is
Drevaleva v. Alameda Health System, 32741-SFRCI.
I decide this based on my own free will.
Tatyana Drevaleva

Date

I refused to sign this letter.
On August 25, 2016 at 1:00 PM, I sent an email to Daly (A155165, Vol. 6; 1502)
where I disagreed with DIR’s assertion that the “evidence” demonstrated a legitimate,
non-retaliatory reason of the termination of my employment. I explained to Daly again
that the incident with the patient couldn’t be a reason of the termination of my
employment because, if I committed medical negligence, AHS would have fired me
immediately. In fact, AHS kept me working for 1.5 months after the incident with the
patient, and AHS gave me a good Letter of Reference. I asked Daly to schedule an
appointment with me. On August 25, 2016 at 1:08 PM, Daly sent me an email (A155165,
Vol. 6; 1501-1502) where she informed me that she hadn’t found my arguments
convincing, and she refused to schedule an appointment with me. She still refused to
provide me with the explanations and evidence regarding the allegation of the medical
negligence.
On August 25. 2016 at 9:01 PM, I emailed Daly (A155165, Vol. 6; 1501) and I
demanded to schedule a hearing. Daly never answered this email.
Page 40 of 64

Next day, on August 26, 2016, Daly forwarded my Rebuttal June 18, 2016 letter
to Healy at 9:54 AM (A155165, Vol. 5; 1496) and claimed that AHS terminated my
employment in 2013 for a legitimate, non-retaliatory reason.
Next day, on August 30, 2016. Daly emailed my June 18, 2014 rebuttal letter to
Cole (A155165, Vol. 6; 1507), “Dear Mr. Cole: ... Today I write about an old case from
2013 involving Tatyana Drevaleva. If you recall, ... Alameda Health ... terminated her
because gross negligence gravely harmed the patient. As you will see from her rebuttal.
she discounts the negligence but also hints at medical malpractice cover-up. I rejected
this argument because it involved “litigating” a medical malpractice issue. Not to
mention the HIPAA issues.
Ms. Drevaleva was in Russia from 2014 through 2016. However, she has returned
and I informed her about the planned dismissal. Please, let me know if Alameda Health
has any further comment. Notably, how she continued to work with her license.” There
is no evidence that Cole sent any explanation to Daly about how I continued to work with
my license after allegedly committing medical negligence.
On August 30, 2016 at 10.58 AM, Daly emailed me (A155165, Vol. 6; 1591) and
refused to schedule an investigative hearing reasoning that the hearing was available only
in “special cases involving child care providers.” It was a Libel because both Labor Code
§98.7 and the Summary of DIR’s Procedures (A155165, Vol. 6; 1560-1563) didn’t say
that the hearing was available only in the special cases involving child care providers.

Page 41 of 64

Daly informed me about my right to appeal with Director of DIR but she didn’t provide
me with any details about why she wanted to dismiss my claim.
Also, please, notice that Daly sent me this email on August 30, 2016 at 10.58 AM.
and she informed me that a hearing was not available, and she informed me about my
right to appeal with Director of DIR. Afterwards, Daly sent her August 30, 2016 email to
Cole at 11.29 AM (A155165, Vol. 6; 1507) where she asked him how I continued to
work with my license after committing medical negligence towards the patient.
On August 30, 2016 at 5:14 PM, I sent an email to Daly (A155165, Vol. 6; 1591)
where I requested to see Daly in person and to give me a provision of the law that Daly
used investigating my retaliation and unlawful termination claim.
On August 31, 2016, Daly emailed me (A155165, Vol. 6; 1576) and stated that
she hadn’t found my June 18, 2014 letter persuasive but she didn’t explain why. She
provided me with Labor Code §98.7. Daly refused to meet with me in person.
On September 01, 2016 at 4:55 PM I emailed Daly (A155165, Vol. 6; 1575)
where I asked to give me the explanations and evidence regarding the allegation of the
medical negligence. Daly never responded.
On December 19, 2016, Supervisor Healy emailed me (A155165, Vol. 1; 58-59)
and informed about DIR’s intention to dismiss my retaliation and unlawful termination
claim but she still didn’t provide me with any explanations and evidence regarding the
allegation of the medical negligence. Healy informed me about my right to appeal the
Page 42 of 64

Determination with Director of DIR within 10 days from the issuance of the
Determination.
On December 20, 2016 at 8:05 PM, I emailed Healy (A155165, Vol. 1; 60) and
asked to provide me with the explanations and evidence regarding the allegation of the
medical negligence, I provided Healy with my home postal address in Mountain View,
and I asked to mail me the Determination Letter, so I could appeal with Director of DIR.
Healy never responded.
I was waiting for the Determination Letter, and I didn’t receive any. Not having
received the Determination Letter, I was deprived of an opportunity to appeal with
Director of DIR Ms. Baker. On December 29, 2016 at 8:01 AM, I emailed Healy
(A155165, Vol. 1; 60-61), and I asked again to give me the explanations and evidence
regarding the allegation of the medical negligence, Again, I didn’t receive neither Healy’s
answer nor the Determination.
On December 29, 2016 at 1:06 PM, I send a second email to Healy (A155165,
Vol. 1; 61-62) where I asked her again to provide me with the explanations and evidence
regarding the allegation of the medical negligence, I provided Healy again with my home
postal address in Mountain View, and I asked to mail me the Determination Letter, so I
could appeal with Director of DIR. I never received any response.
Because I didn’t receive any answers on my December 20, 2016 letter and two
December 29, 2016 letters to Healy, and because I didn’t receive the Determination

Page 43 of 64

Letter, I filed a lawsuit No. 3:16-cv-07414-LB Drevaleva v. 1) Alameda Health System,
2) The Department of Industrial Relations at the District Court for the Northern District
of California on December 29,2016.
On January 01, 2017, still not having received any response from DIR, I emailed
Healy (A155I65, Vol. 1; 63), and I notified her that I had emailed her three times with
my requests to give me the evidence regarding the allegation of the medical negligence. I
asked Healy again to give me answers on my questions. Again, I didn’t receive any
answer.
After I filed a Complaint No. 3:16-cv-07414-LB, I received the Determination
Letter from DIR’s Attorney (A155165, Vol. 1; 64-66), “... the investigation revealed no
connection between your protected activities and your termination.
You orally complained to Alameda Health Director of Critical Care Units Gilbert
Harding a few days before September 5, 2013. You followed up with a September 5,
2013, letter complaining Alameda Health failed to pay you overtime and shift
differentials; to give you additional 10 minute breaks each hour, making watching vital
monitors unsafe;’to provide you regular breaks; and to allow you access to the Collective
Bargaining Agreement’s (CBA) educational benefits.
You claim your oral and written complaints caused Alameda Health to terminate
you on September 7, 2013. However, Alameda Health denied your September 5, 2013 led
to your termination. It produced a September 4, 2013 email from your direct supervisor

Page 44 of 64

Dana Littlepage, RN, announcing you would be let go from probation and seeking
Human Resource’s advice on next steps. This predated your September 5, 2013 letter to
Harding.
In rebuttal, you amended your claim to say you spoke to Harding about “salary
and benefits” on August 25, 2013. This included showing him your offer letter
purportedly proving your salary was “much less than [she] had been offered.” Harding
allegedly promised “to think about it.” The language you used is vague, as such it is not
clear that you raised issues this office could investigate prior to the September 5, 2013
letter. Nothing in your rebuttal mentioned you raised unpaid overtime, missed breaks, or
ergonomic rights during this newly reported August 25, 2013 conversation.
On September 7, 2013, Alameda Health dismissed you for “discrepancies
between acceptable employment standards and those you exhibited during your
employment with us.” The evidence established a patient died during your employment.
You denied any negligence and noted Alameda Health kept you working as a monitor
technician during the ensuing investigation, failed to stop your unemployment, and never
reported you to state licensing. While these arguments are compelling, whether or not
you performed negligently or others were responsible are issues well outside of the Labor
Commissioner’s jurisdiction.
On September 14, 2013, Alameda Health dismissed your workplace complaints
by pointing out public employees did not qualify for daily overtime; you miscalculated
the overtime given the employer’s 24 hour workday; you needed to, and could have,
Page 45 of 64

notified your supervisor about missing breaks; the additional 10 minute break ergonomic
rule had not been applied since 2011; and your probationary status disqualified you from
any Collective-Bargaining Agreement (CBA) educational benefits. In the claim you filed
with the Labor Commissioner’s Wage Adjudication unit office these issues were
dismissed for lack of jurisdiction.
Your claim for additional ten minute breaks as an ergonomic accommodation was
evaluated as a health and safety complaint. You were unable to provide any evidence you
raised this issue prior to your September 5, 2013 letter. There was no evidence this
particular complaint upset Alameda Health as this institution firmly believed this law had
been repealed in 2011. Significantly, Cal OSHA did not intervene on this issue when you
filed with them post termination, not were citations used. As a result, the evidence does
not support that your employer was motivated to take action against you for raising this
issue.
Additionally, your probationary status meant Alameda Health could
terminate you at any time and without due process. Your involvement with medical
negligence, whether peripheral or not, also gave Alameda Health a compelling
reason to terminate you.”
You engaged in protected activities with your employer’s knowledge. Further,
your employer admitted terminating you. However, you failed to connect your
employer’s knowledge of your protected activities with the adverse actions it took against

Page 46 of 64

you. Instead, the evidence established your employer’s legitimate, non-retaliatory reasons
for terminating you.”
Therefore, DIR consistently refused to meet with me, to provide me with the
explanations and evidence regarding the allegation of the medical negligence, refused to
schedule an evidentiary hearing with my former employer AHS, and accused me in
committing medical negligence towards the patient.
After filing a lawsuit No. 3:16-cv-07414-LB against AHS and DIR at the District
Court, I learned about the Eleventh Amendment’s protection. I removed DIR from a list
of Defendants. I filed an Amended Complaint, and I listed four DIR’s Officers Ms.
Healy, Ms. Daly, Mr. Santos, and Mr. Rood whom I was suing in their individual
capacities. Mr. Santos is a Deputy of the Labor Commissioner who dismissed my wage
claim on January 07, 2014 asserting DIR’s lack of jurisdiction for County employers. Mr.
Eric Rood is one of DIR’s Directors who signed a December 29, 2016 Determination
Letter.
During the litigation of my Amended Complaint No. 3:16-cv-07414-LB, three out
of four DIR’s Officers were not served with a Summons and an Amended Complaint, and
four Officers didn’t timely consent to magistrate jurisdiction. Regardless, Magistrate
Judge the Hon. Laurel Beeler continued to judge the lawsuit. All four Officers that were
represented by Attorney Ms. Ng claimed Governmental immunity for discretionary acts
pursuant to Gov. Code §820.2 and privilege pursuant to Civil Code §47. During the
litigation at the District Court, AHS didn’t say that I had been fired for medical
Page 47 of 64

negligence towards the patient. Neither AHS nor DIR and its Officers submitted any
explanation and evidence regarding the allegation of the medical negligence. Regardless,
on July 07, 2017, the Hon. Judge Beeler granted DIR’s Officers with Governmental
immunity for discretionary acts pursuant to Gov. Code §820.2 and with absolute privilege
pursuant to Civil Code §47 and entered a Judgment in favor of the Officers. The Judge
also dismissed a lawsuit against AHS for lack of subject-matter jurisdiction.
On November 07, 2018, I filed a lawsuit against DIR at the Superior Court of
Alameda County, No, RG17881790, Drevaleva v. Department of Industrial Relations
(A155165, Vol. I; 1-78.) Please, read the allegations of the complaint (A155165, Vol. 1;
22-23), “The First Cause of Action - Libel:
1) DIR said that I had committed negligence towards the patient even though my
former employer AHS never said it. Despite my numerous requests, DIR never explained
what my specific actions were that constituted negligence
2) DIR said that I had missed my appointment on September 13th, 2016. To the
best of my knowledge, I didn’t have any appointment on September 13th, 2016 with DIR.
Despite my numerous requests, DIR never provided me with evidence that the
appointment really existed
3) DIR lied that it had sent me the Determination Letter so I could file an appeal
with Director of DIR Ms. Baker. Despite my numerous requests to see the confirmation
of this mailed document such as a return receipt, DIR never showed it to me. Also,

Page 48 of 64

despite my numerous requests, DIR never specified what home postal address it used for
mailing me this letter
4) DIR lied that I knew that I was going to be fired from AHS prior to sending my
letter to Mr. Harding. DIR talked about an alleged letter dated September 04, 2013 from
“my direct supervisor” Ms. Littlepage whom I even don’t know and who never was my
supervisor. In fact, I never received such a letter
5) DIR lied that it didn’t have jurisdiction over “county employees” and denied
my wage claim.
The Second Cause of Action - Professional Negligence:
1) DIR failed to contact with all witnesses whom I listed in my letter to Ms. Daly
dated June 18th, 2014 and August 6th, 2016
2) DIR recklessly disregarded the main witness Dr. Sina Rachmani who can
confirm that my EKG reading was correct
3) DIR processed my claim for a huge amount of time - over three years causing
me a lot of suffering, pain, and pushing me into a huge financial debt
4) DIR attempted to force me to withdraw my claim thus depriving me the
opportunity to get reinstated back to work and to get all not received wages, benefits, and
other compensation

Page 49 of 64

5) DIR never sent me the Determination letter thus depriving me an opportunity to
file an appeal with Ms. Baker
6) intentionally failing to recognize fraud and negligence committed by AHS
towards me. DIR knew that I didn’t perform negligence towards the patient but continued
to support my retaliator AHS.”
On March 09, 2018, DIR served me with an anti-SLAPP Motion pursuant to
C.C.P. §425.16 (A155165, Vol. 1; 211-284.) Regarding the First Prong of the antiSLAPP statute, DIR asserted that I had violated DIR’s First Amendment right for free
speech and petitioning. DIR presented Daly’s sworn Declaration where she declared
under the penalty of perjury that on December 02, 2013 she spoke to Harding and Cole,
and they said to her that I had been fired for medical negligence towards the patient
(A155165, Vol. 1; 232-235.) Also, DIR presented the first version of a September 04,
2013 email allegedly written by Littlepage where she proposed to release me from my
probationary employment (A155165, Vol. 1; 240-241.) DIR claimed that the September
04, 2013 email predated my September 05, 2013 letter to Harding. Also, Daly claimed
that I knew that I would be fired prior to sending my September 5, 2013 letter to Harding.
Regarding the Second Prong of the anti-SLAPP statute, DIR claimed Governmental
immunity for discretionary acts pursuant to Gov. Code, §815.2(b), 818.8, 821.6, 820.2
and privilege under Civil Code §47(b.)

Page 50 of 64

On March 09, 2018, DIR also served me with a Demurrer (A155165, Vol. 1; 100139) where DIR asserted Governmental immunity for discretionary acts pursuant to Gov.
Code, §§815.2(b), 818.8, 821.6, 820.2 and privilege under Civil Code §47(b.)
On March 12, 2018,1 filed a Motion for Specified Discovery Despite the Pending
anti-SLAPP Motion pursuant to C.C.P. §425.16(g), see (A155165, Vol. 2; 313-323 and
329-330) and (A155165, Vol. 1; 285-286) where I asked to provide me with the
explanations and evidence regarding the allegation of the medical negligence. Also, I
requested DIR to give me the name of the person who allegedly notified me that I would
be fired from AHS prior I sent my September 05, 2013 letter to Harding.
I provided the Superior Court with my Opening Brief in Appeal No. 17-16382 at
the 9th Circuit (A155165, Vol. 2; 400-478), with AHS’s Motion to Dismiss my Original
Complaint (A155165, Vol. 2; 479-488), and with AHS’s Motion to Dismiss my
Amended Complaint in case No. 3:16-cv-07414-LB (A155165, Vol. 2; 489-506.) I
clearly demonstrated that during the litigation at the District Court AHS didn’t say that I
had been fired for medical negligence. Also, I provided the Superior Court with DIR’s
Motion to Dismiss my original Complaint No. 3:16-cv-07414-LB (A155165, Vol. 2; 507526) where DIR claimed the Eleventh Amendment’s protection and where DIR didn’t say
that I had been fired for medical negligence. Also, I provided the Superior Court with
DIR’s Officers’ Motion to Dismiss my Amended Complaint No, 3:16-cv-07414-LB
(A155165, Vol. 2; 527-536) where DIR’s Officers didn’t say that I had committed
medical negligence towards the patient, didn’t provide the District Court with any
Page 51 of 64

explanation and evidence regarding the allegation of the medical negligence, and that the
Officers asserted only an affirmative defense which was Governmental immunity for
discretionary acts pursuant to Gov. Code §820.2 and privilege pursuant to Civil Code
§47.

On March 19, 2018, DIR opposed my Motion for Specified Discovery Despite the
Pending anti-SLAPP Motion (A155165, Vol. 2; 556-564) saying that the Discovery was
not necessary because the information that I was seeking was available through other
informal resources.
On March 21, 2018, I opposed the anti-SLAPP Motion (A155165, Vol. 2; 565578.) I said that my Complaint didn’t arise from DIR’s First Amendment right for free
speech.. My Complaint arose from DIR’s Libel about the reasons of the termination of
my employment. Also, DIR was not eligible to strike the Second Cause of Action
(Professional Negligence) because this cause of action didn’t fall into the definition of
“speech”, “petitioning”, and “other activity” that were protected by the anti-SLAPP
statute.
On March 22, 2018,1 submitted a Request for Public Records to DIR (A155165,
Vol. 3; 712-713.) I requested to provide me with the explanations and evidence regarding
the allegation of the medical negligence. On April 18, 2018, I received DIR’s partial
response to my Request for Public Records (A155165, Vol. 4; 983-989.) With this
Response, I received a second version of an alleged Littlepage’s email where she
proposed to release me from my probationary employment (A155165, Vol. 4; 988-989.)
Page 52 of 64

Also, I received three pages of the handwritten notes that it was impossible to read
(A155165, Vol. 4; 985-987.) DIR advised me to file a Second Request for Public
Records and to request the Complete File of the Public Records. On April 19, 2018, I
submitted my Second Request for Public Records. DIR acknowledged this request in its
May 1, 2018 letter (A155165, Vol. 4; 1112.) Afterwards, I didn’t hear from DIR, and I
didn’t receive the Public Records.
On March 26, 2018, I replied to DIR’s Opposition to my Motion for Specified
Discovery Despite the Pending anti-SLAPP Motion (A155165, Vol. 3; 734-745.) I
argued that I had a right for specified Discovery despite the pending anti-SLAPP Motion
because the results of the Discovery will prove my Complaint.
On April 09, 2018, I filed a Second Request to Take a Judicial Notice of the
documents from the District Court and from the 9th Circuit (A155165, Vol. 3; 873-876.) I
also provided the Superior Court with AHS’s Answering Brief at the 9th Circuit in Appeal
No. 17-16382 (A155165, Vol. 3; 800-836) where AHS suddenly said that I had been
fired for poor professional performance (A155165, Vol. 3; 809-811) but AHS didn’t give
both explanations and evidence regarding the allegation of the poor performance.
After I received two versions of Littlepage’s email (A155165, Vol. 4, 1025-1031),
I suspected that this email was fabricated. I shared my thoughts with the Court but the
Court didn’t pay attention.

Page 53 of 64

On May 18, 2018, the Superior Court denied my Motion for Specified Discovery
Despite the Pending anti-SLAPP Motion (A155165, Vol. 4; 1075-1076) stating that, even
if I obtained the evidence that I didn’t commit medical negligence towards the patient, or
if I obtained the evidence that I didn’t know that I would be fired prior to sending my
September 5, 2013 letter to Harding, that evidence would be immaterial to DIR’s
Governmental immunity.
On May 18, 2018, the Superior Court ordered the parties to compete additional
briefing in support and opposition of DIR’s anti-SLAPP Motion (A155165, Vol. 4; 10771079.)
On May 24, 2018,1 filed a Motion for Reconsideration of the May 18, 2018 Order
that denied my Motion for Specified Discovery Despite the Pending anti-SLAPP Motion
(A155165, Vol. 4; 1082-1093.) I argued that DIR didn’t have a right to withhold the
documents regarding DIR’s processes of investigation of my both retaliation and
unlawful termination claim and my wage claim because these documents were the Public
Records. I had a right to obtain the writings of the Public officials pursuant to the
California Constitution, Article 1, Sections 3(b)(1) and (b)(2) and pursuant to the
California Public Records Act (the CPRA), see (A155165, Vol. 4; 1086.) I argued that a
Public Entity didn’t have a right to block Discovery using the anti-SLAPP Motion if the
Plaintiff sought to obtain the Public Records that were not exempt from the disclosure.
On May 24, 2018, not receiving DIR’s response to my Second Request for Public
Records, I filed a Verified Petition for Writ of Mandate to Compel DIR to Issue the
Page 54 of 64

Improperly Withheld Public Records (A155165, Vol. 4; 1094-1115.) I filed this Petition
in a form of a Noticed Motion after obtaining a permission of a Judge to do it.
On May 24, 2018,1 filed my Response to the May 18, 2018 Order regarding the
anti-SLAPP Motion (A155165, Vol. 4; 1123-1145.) I analyzed the causes of action
“Libel” and “Professional Negligence.” On May 28, 2018, DIR filed its Response to the
May 18, 2018 Order (A155165, Vol. 4; 1148-1165.) On June 05, 2018,1 filed my Reply
to DIR’s Response (A155165, Vol. 4; 1174 to Vol. 5; 1201.) In my Reply, I argued that
my Complaint No. RG17881790 didn’t arise from DIR’s First Amendment right for free
speech and petitioning. My Complaint arose from DIR’s consistent refusals to give me
the explanations and the evidence regarding the allegation of the medical negligence.
Therefore, DIR was not eligible to strike my Complaint using the anti-SLAPP Motion.
Moreover, I analyzed various allegations of my Second Cause of Action “Professional
Negligence” that were outside of the scope of “speech” and “petitioning”, and therefore
they were outside of the scope of the anti-SLAPP statute.
On June 04, 2018, DIR filed its Reply to my Response to the May 18, 2018 Order
(A155165, Vol. 4; 1163-1165.)
Also, I filed Letters of Reference from my previous employers and my
Performance Evaluation from the San Francisco VAMC where my performance was
rated as outstanding and exceptional (A155165, Vol. 5; 1203-1232.)

Page 55 of 64

On July 05, 2018, DIR opposed my Verified Petition for Writ of Mandate to
Compel DIR to Issue the Improperly Withheld Public Records (A155165, Vol. 5; 12461252) claiming procedural deficiencies. On July 05, 2018, DIR also opposed my Motion
for Reconsideration of the Court’s Order that denied my Motion for Specified Discovery
Despite the Pending anti-SLAPP Motion (A155165, Vol. 5; 1253-1269.)
On July 12, 2018, I replied to DIR’s Opposition to my Verified Petition for Writ
of Mandate to Compel DIR to Issue the Improperly Withheld Public Records (A155165,
Vol. 5; 1276-1305.)
On July 27, 2018, the Superior Court denied my Motion for Reconsideration of the
May 18, 2018 Order that denied my Motion for Specified Discovery Despite the Pending
anti-SLAPP Motion (A155165, Vol. 5; 1347-1349.)
In July 2018, after filing my Verified Petition for Writ of Mandate to Compel DIR
to Issue the Improperly Withheld Public Records, I received a Complete File of the
Public Records from DIR (A155165, Vol. 5; 1463 to Vol. 6; 1670.) When I read the
Complete File, there were no any explanations and evidence regarding DIR’s allegation
of the medical negligence towards the patient.
On July 27, 2018, the Superior Court denied my Verified Petition for Writ of
Mandate to Compel DIR to Issue the Improperly Withheld Public Records claiming
procedural deficiencies (A155165, Vol. 5; 1351-1353.)

Page 56 of 64

On August 17, 2018, the Superior Court partially granted DIR’s anti-SLAPP
Motion (this Order is not in the Clerk’s Transcript.) The Court ruled that my First
Cause of Action “Libel” arose from DIR’s First Amendment right for free speech and
petitioning. The Court found that two allegations within the Second Cause of Action
‘Professional Negligence” (the attempt of Daly to coerce me to withdraw my retaliation
and unlawful termination claim and intentionally failing to recognize fraud and
negligence committed by AHS towards me. DIR knew that I didn’t perform negligence
towards the patient but continued to support my retaliator AHS) fell within the scope of
free “speech” and “petitioning,” and therefore the Court struck these allegations using the
anti-SLAPP statute. Analyzing the Second Prong, the Court recklessly disregarded all
pieces of evidence that I presented (good letter of reference from AHS and from previous
employers, AHS’s Motions to Dismiss at the District Court, DIR’s and its Officers’
Motions to Dismiss at the District Court, the Personnel File from AHS where the reason
of the termination of my employment was stated as “probationary release.”, the
documents from the Employment Development Department that confirmed that I was
receiving my unemployment insurance after being fired from AHS, and the Complete
File of the Public Records from DIR where there were no explanations and evidence
regarding the allegation of the medical negligence.) The Court refused to take a Judicial
Notice of these documents. Instead, the Court granted DIR with Governmental immunity
pursuant to §§815.2(b), 818.8, 821.6, 820.2 and with privilege under Civil Code §47(b.)
The Court awarded DIR with Attorney’s Fees at the commercial rate $400 per hour for
partially winning the anti-SLAPP Motion.
Page 57 of 64

The Court sustained DIR’s Demurrer to four remaining allegations of the Second
Cause of Action (Professional Negligence) without leave to amend (A155165, Vol. 6;
1736-1741) applying the same provisions of the Governmental immunity for
discretionary acts.
On September 10, 2018, I filed a Motion for Costs and Attorney’s Fees for
partially prevailing on the anti-SLAPP Motion pursuant to both C.C.P. §425.16(c)(1) and
C.C.P. §128.5 (A155165, Vol. 7; 1834-1866.) I also filed a Motion for Costs and
Attorney’s Fees pursuant to Gov. Code §6259(d) as a Prevailing Requester in the CPRA
litigation (there is no this Motion in the Clerk’s Transcript.)
DIR opposed my Motion for Costs and Attorney’s Fees pursuant to Gov. Code
§6259(d) (A155165, Vol. 7; 1883-1886) and opposed my Motion for Costs and
Attorney’s Fees pursuant to C.C.P. §128.5 (A155165, Vol. 7, 1887-1890) stating that, as
a Pro Se litigant, I am not eligible for an award of the Attorney’s Fees. I replied to both
Oppositions (there are no my Replies in the Clerk’s Transcript.)
On October 04, 2018, the Superior Court denied my Motion for Costs and
Attorney’s Fees pursuant to C.C.P. §128.5 (A155165, Vol. 7; 1892-1894) stating that, as
a Pro Se litigant, I was not eligible for an award of the Attorney’s Fees. The Court held
that, because DIR prevailed on a large portion of the anti-SLAPP Motion, the Motion was
not frivolous, and that DIR’s victory on a large part of the anti-SLAPP Motion
overlapped my victory on a small part of the Motion. Also, the Court denied my Motion
for Costs and Attorney’s Fees pursuant to Gov. Code §6259(d) (A155165, Vol. 7; 1895Page 58 of 64

1896) stating that my Verified Petition for Writ of Mandate to Compel DIR to Issue the
Improperly Withheld Public Records was procedurally deficient, and that, as a Pro Se
litigant, I was not entitled to an award of the Attorney’s Fees.
On December 20, 2019, the Court of Appeal affirmed all rulings of the Superior
Court despite the Clerk’s Transcript was incomplete, and there was no the Order that
partially granted the anti-SLAPP Motion, and there was no my Motion for Costs and
Attorney’s Fees pursuant to Gov. Code §6259(d), and there were no my Replies to DIR’s
Oppositions to two my Motions for Costs and Attorney’s Fees.

Page 59 of 64

REASONS FOR GRANTING THE WRIT.
My Complaint is not governed by the anti-SLAPP statute. DIR can’t assert
Governmental immunity and privilege for failure to discharge a mandatory duty to
investigate my retaliation and unlawful termination claim and my wage claim that was
governed by Labor Code Section 98.7. Therefore, DIR is liable pursuant to Gov. Code
§815.6, “Where a public entity is under a mandatory duty imposed by an enactment that
is designed to protect against the risk of a particular kind of injury, the public entity is
liable for an injury of that kind proximately caused by its failure to discharge the duty
unless the public entity establishes that it exercised reasonable diligence to discharge the
duty.”
Also, my case is governed by Labor Code §1138.1(a)(5),
“(a) No court of this state shall have authority to issue a temporary or permanent
injunction in any case involving or growing out of a labor dispute, except after hearing
the testimony of witnesses in open court, with opportunity for cross-examination, in
support of the allegations of a complaint made under oath, and testimony in opposition
thereto, if offered, and except after findings of fact by the court, of all of the following:
(1) That unlawful acts have been threatened and will be committed unless
restrained or have been committed and will be continued unless restrained, but no
injunction or temporary restraining order shall be issued on account of any threat or

Page 60 of 64

unlawful act excepting against the person or persons, association, or organization making
the threat or committing the unlawful act or actually authorized those acts.
(2) That substantial and irreparable injury to complainant's property will follow.
(3) That as to each item of relief granted greater injury will be inflicted upon
complainant by the denial of relief than will be inflicted upon defendants by the granting
of relief.
(4) That complainant has no adequate remedy at law.
(5) That the public officers charged with the duty to protect complainant's
property are unable or unwilling to furnish adequate protection.....”
In fact, despite DIR’s officers refused to give me the adequate protection, I was
unable to obtain relief in the California Courts. Therefore, I am asking the U.S. Supreme
Court to reverse the December 20, 2019 Opinion and to proceed my case to a jury trial
because I have no any other remedy. I want to be free from injustice.

Page 61 of 64

CONCLUSION.
The Petition for Writ of Certiorari should be granted.
Respectfully submitted,

s/ Tatyana Drevaleva

rir

Petitioner-Appellant Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@gmail.com
Date: September 14, 2020

Page 62 of 64

VERIFICATION.
I, a Pro Se Petitioner Tatyana Drevaleva, am a Party to this action. I have read the
foregoing Petition and know its contents. The facts alleged in the Petition are within my
own knowledge and I know these facts to be true.
I declare under the penalty of perjury and under the Federal laws and under the
laws of the State of California that all foregoing is true and correct. Executed at San
Francisco, CA on September 14, 2020.

oi/rui'

Respectfully submitted,

s/ Tatyana Drevaleva
Petitioner-Appellant Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@gmail.com
Date: September 14, 2020

Page 63 of 64

